Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   NATIONAL INSTITUTES OF 

   HEALTH’S HANDLING OF 

  ALLEGATIONS CONCERNING 

  CONFLICT OF INTEREST AND

     ETHICS VIOLATIONS





                    Daniel R. Levinson

                     Inspector General 


                      October 2008

                     OEI-03-07-00220

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                             S U M M A R Y


                  OBJECTIVE
                  1. 	 To determine the number and nature of allegations related to
                       conflicts of interest and ethics violations received by the National
                       Institutes of Health (NIH) between January 1, 2006, and
                       June 30, 2007.

                  2. 	 To determine the final resolution of these allegations.

                  3. 	 To determine how different Institutes and offices at NIH handle
                       allegations of conflicts of interest and ethical misconduct.


                  BACKGROUND
                  Congress, the Office of Government Ethics, and the Department of
                  Health and Human Services (HHS) have promulgated
                  conflict-of-interest statutes and ethics regulations to help ensure that
                  Federal employees are not compromised by conflicts of interest when
                  performing their official duties. Although NIH employees are permitted
                  to perform outside activities with non-Federal entities, they may not
                  undertake activities that might cause actual or perceived conflicts of
                  interest.

                  The NIH ethics program is composed of the NIH Ethics Office within
                  the Office of the Director and ethics offices within each of the Institutes
                  and Centers (Institutes) at NIH. The ethics program encompasses all of
                  NIH’s approximately 18,000 employees.

                  The NIH Ethics Office was established to provide guidance and advice
                  to the ethics offices within each Institute and to the NIH community as
                  a whole. In addition, the HHS Office of the General Counsel (OGC)
                  maintains an ethics division at NIH to provide advice on ethics issues
                  and the interpretation of HHS regulations.

                  NIH staff members are responsible for reporting employee activities
                  that they believe are criminal or improper. The HHS Office of Inspector
                  General (OIG) handles allegations of criminal offenses, including
                  violations of conflict-of-interest statutes. NIH’s Office of Management
                  Assessment (OMA) handles allegations of noncriminal employee
                  misconduct and conflicts of interest related to NIH programs and
                  activities.

                  We reviewed all documentation that we received from NIH pertaining to
                  allegations of violations of conflict-of-interest statutes and violations of


OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   i
E X E C U T I V E              S U             M M A R Y


                   ethics regulations. The allegations were received by NIH from
                   January 1, 2006, to June 30, 2007. We surveyed 31 Deputy Ethics
                   Counselors at the Institutes. We also interviewed relevant staff in
                   OMA, the NIH Ethics Office, and OGC Ethics Division to determine
                   what role each plays in the handling of allegations. As part of our
                   interview protocol, we collected any relevant documentation or
                   operating procedures that these offices maintain.


                   FINDINGS
                   The most common allegations involved National Institutes of Health
                   employees not completing required ethics training or ethics forms.
                   We received documentation from NIH for 565 allegations related to
                   conflicts of interest and/or ethics violations. NIH determined that 542 of
                   the allegations were substantiated and 23 were unsubstantiated. The
                   majority of substantiated allegations (296 allegations) were related to
                   employees not completing required ethics training. The second most
                   common substantiated allegation (194 allegations) was related to
                   employees not completing required ethics forms.
                   The majority of allegations were resolved within the National
                   Institutes of Health; however, for one-third of allegations, no final
                   resolution was documented. NIH resolved 60 percent of substantiated
                   allegations internally and forwarded another 7 percent to OIG for
                   possible investigation. The majority of allegations were resolved by
                   having the employees complete the required ethics training or forms.
                   NIH did not provide documentation regarding its final resolutions for
                   33 percent of substantiated allegations. The absence of documentation
                   does not necessarily mean that the allegation was not resolved.
                   However, without complete documentation, it is impossible to determine
                   whether and how these allegations were resolved, including whether
                   they were handled appropriately and consistently.
                   The majority of Institutes do not have written procedures regarding
                   how to handle allegations and do not handle allegations uniformly.
                   The majority of Institutes do not have Institute-specific policies or
                   procedures for reviewing allegations regarding violations of the
                   conflict-of-interest statutes and ethics regulations. Institutes reported
                   that when handling an allegation, they do not uniformly confer with the
                   NIH Ethics Office, the OGC Ethics Division, or OMA. For example,
                   eight Institutes reported that they would contact any of the three offices
                   for guidance when reviewing allegations. Another 15 Institutes


 OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   ii
E X E C U T I V E              S U             M M A R Y


                   reported that they would seek assistance from only one or two of the
                   offices. The remaining Institutes did not specifically report conferring
                   with any of the three offices. With regard to criminal allegations, most
                   Institutes rely on the NIH Ethics Office, the OGC Ethics Division, or
                   OMA to refer these allegations to OIG. However, several Institutes
                   make referrals directly to OIG.

                   Coordination among the Ethics Office, the Office of Management
                   Assessment, and the Office of the General Counsel Ethics Division
                   occurs but is not formalized in a written policy. During interviews
                   with staff at the NIH Ethics Office, OMA, and the OGC Ethics Division,
                   it was clear that they understand their own roles and responsibilities
                   with regard to handling allegations. However, although OMA has
                   written policies and procedures in place to handle allegations, the NIH
                   Ethics Office and the OGC Ethics Division do not. In addition, none of
                   the offices have written procedures outlining the coordination between
                   the three offices.


                   RECOMMENDATIONS
                   NIH employees have a responsibility to avoid the appearance of
                   impropriety, which can undermine public confidence in the scientific
                   integrity of NIH’s research program. Consequently, NIH has a
                   responsibility to ensure that its employees abide by Federal statutes
                   and regulations regarding ethics and conflicts of interest. Violations of
                   these statutes and regulations could jeopardize the scientific integrity of
                   NIH’s research programs.

                   Because NIH is organized as various components, including Institutes,
                   NIH’s ethics program is composed of various offices that work to handle
                   allegations of conflict of interest and ethics violations. To maintain
                   consistency in how allegations are handled, we recommend that NIH:

                   Develop a formal, written policy outlining how allegations of conflicts
                   of interest and ethics violations are to be handled among the
                   Institutes’ ethics offices, the National Institutes of Health Ethics
                   Office, the Office of the General Counsel Ethics Division, and the
                   Office of Management Assessment.

                   Ensure that documentation detailing how allegations are ultimately
                   resolved is maintained.




 OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   iii
E X E C U T I V E              S U             M M A R Y 




                   AGENCY COMMENTS
                   NIH concurred with our recommendations, stating that as of
                   August 15, 2008, the recommendations were implemented as a new
                   chapter in the “NIH Policy Manual.” However, NIH noted that our
                   finding related to employees not completing required ethics forms was
                   misleading because it did not provide as context the number of
                   employees required to take the training. The official draft report shared
                   with NIH did note in the background, as does this final report, that
                   NIH’s ethics program encompasses approximately 18,000 employees.




 OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9

                   Most allegations involved NIH employees not completing 

                   required ethics training or ethics forms . . . . . . . . . . . . . . . . . . . . . . 9 


                   One-third of allegations did not have documented resolutions . . . 10 


                   The majority of Institutes do not have written procedures

                   regarding how to handle allegations . . . . . . . . . . . . . . . . . . . . . . . 13 


                   Coordination among internal offices occurs but is not 

                   formalized in a written policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                   A: 	Types and Number of Allegations Related to Conflict 

                       of Interest and Ethics Violations Between January 1, 2006, 

                       and June 30, 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                   B: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  1. 	 To determine the number and nature of allegations related to
                       conflicts of interest and ethics violations received by the National
                       Institutes of Health (NIH) between January 1, 2006, and
                       June 30, 2007.

                  2. 	 To determine the final resolution of these allegations.

                  3. 	 To determine how different Institutes and offices at NIH handle
                       allegations of conflicts of interest and ethical misconduct.


                  BACKGROUND
                  NIH, located within the Department of Health and Human Services
                  (HHS), is the primary Federal agency responsible for conducting and
                  supporting medical research. Organized into 27 Institutes and Centers,
                  NIH spends billions of dollars annually to support its mission. In fiscal
                  year 2007, the total NIH appropriation was over $29.2 billion. Much of
                  this funding is distributed through almost 50,000 competitive grants to
                  more than 325,000 researchers at over 3,000 universities, medical
                  schools, and other research institutions across the country and around
                  the world.1
                  One of NIH’s stated goals is to “exemplify and promote the highest level
                  of scientific integrity, public accountability, and social responsibility in
                  the conduct of science.”2 Maintaining this scientific integrity involves
                  avoiding conflicts of interest in which employees’ performance of official
                  duties might be affected by outside financial interests, such as stock
                  holdings or employment activities with non-Federal entities. Although
                  NIH employees are permitted to interact with non-Federal entities to
                  perform certain outside activities that are crucial to maintaining
                  technical proficiency, professional licenses, and academic credentials,
                  they may not undertake activities that might cause actual or perceived
                  conflicts of interest. Because NIH employees hold positions of trust,
                  even the appearance of conflicts of interest can undermine the public’s
                  confidence.




                    1 NIH. “NIH Budget.” Available online at www.nih.gov/about/budget.htm.
                  Accessed on July 3, 2008.
                    2 NIH. “About NIH.” Available online at www.nih.gov/about. Accessed on July 3, 2008.




OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   1
I N T R O D        U C T       I O N


                    Conflict of Interest
                    Congress has imposed prohibitions to help ensure that Federal
                    employees are not compromised by conflicts of interest when performing
                    their official duties. For example, 18 U.S.C. § 208 prohibits employees
                    from participating in official matters in which they and certain others
                    with whom they have relationships (such as spouses, dependent
                    children, and outside employers) have a financial interest. A related
                    statute, 18 U.S.C. § 209, prohibits Federal employees from
                    receiving any salary, or contribution to or supplementation of salary,
                    from any source other than the United States as compensation for
                    services as a Government employee (such as receiving an honorarium
                    for giving an official speech). Violations of these two statutes are
                    considered criminal offenses.

                    The Office of Government Ethics exercises leadership to prevent
                    conflicts of interest on the part of executive branch employees. In 1992,
                    the Office of Government Ethics promulgated Standards of Ethical
                    Conduct for Employees of the Executive Branch (5 CFR pt. 2635), which
                    included prohibitions against engaging in conflicting outside activities.
                    In 1996, the Supplemental Standards of Ethical Conduct for Employees
                    of HHS (Supplemental Standards), which prohibited all HHS employees
                    from engaging in compensated outside activities involving HHS-funded
                    grants, contracts, cooperative agreements, and cooperative research and
                    development agreements, was issued.
                    The Supplemental Standards were revised in August 2005, when
                    additional prohibitions on outside activities were imposed. These
                    prohibitions prevented NIH employees from engaging in outside
                    activities with substantially affected organizations, supported research
                    institutions, and health care providers or insurers. The revisions also
                    included additional prohibitions on financial holdings for senior NIH
                    employees, such that these employees and their spouses and minor
                    children must divest all holdings in substantially affected organizations
                    in excess of $15,000 per company.

                    NIH monitors outside activities and financial interests of its employees
                    by reviewing the following forms:
                    •	   Request for Approval of Outside Activity (HHS-520). This form is
                         required for certain outside activity requests. It contains
                         information on the employee’s position; the nature of the outside
                         activity; the length of time over which the outside activity will be



 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   2
I N T R O D        U C T      I O N


                      performed; and the method of compensation, if any, for the outside
                      activity.
                    •	 Supplemental   Information to the HHS-520 (NIH-2657). Outside
                      activities involving consulting for industry, legal
                      consulting/testimony, and professional practice by NIH employees
                      require the submission of this form.
                    •	 Annual   Report of Outside Activity (HHS-521). NIH employees who
                      conduct outside activities are also required to file this annual report
                      of outside activities for the previous calendar year by February 28.
                    •	 Public
                            Financial Disclosure Report (SF-278) and Confidential
                      Financial Disclosure Report (OGE-450). Office of Government
                      Ethics regulations outline which executive branch officials are
                      required to file these forms.
                    •	 Confidential
                                  Report of Financial Interests in Substantially Affected
                      Organizations for Employees of the NIH (HHS-717-1). Under the
                      revised HHS Supplemental Standards of Ethical Conduct, NIH
                      employees who file public or confidential financial disclosure forms
                      and clinical researchers must disclose the amounts that they invest
                      in substantially affected organizations on this form.3
                    Ethics Program at the National Institutes of Health
                    The ethics programs of HHS agencies, including NIH, are coordinated
                    by the Designated Agency Ethics Official, who also serves as the
                    Department’s Associate General Counsel for Ethics. The Designated
                    Agency Ethics Official appoints Deputy Ethics Counselors in each
                    agency, issues policies and procedures for the HHS ethics program,
                    establishes ethics training for the Deputy Ethics Counselors and HHS
                    employees, and conducts periodic site reviews of agencies’ ethics
                    programs.

                    The Deputy Director of NIH serves as the Deputy Ethics Counselor for
                    all of NIH and the NIH Ethics Office assists the NIH Deputy Ethics
                    Counselor in overseeing the NIH ethics program. The ethics program
                    encompasses all of NIH’s approximately 18,000 employees. NIH
                    requires more than one-third of these employees to submit financial
                    disclosure forms on an annual basis.



                      3 The HHS-717-1 used to be referred to as the HHS-716. For the purposes of this report,
                    the HHS-716 and HHS-717-1 constitute the same form.



 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   3
I N T R O D        U C T      I O N


                    The NIH Ethics Office was established to provide guidance and advice
                    to the ethics offices within each Institute and Center and to the NIH
                    community as a whole. It also serves as the ethics office for senior NIH
                    employees and Office of the Director employees and, as such, provides
                    guidance and advice to these employees. It also assists with the formal
                    and informal training of Institute officials.

                    Each Institute’s and Center’s ethics office at NIH is also managed by a
                    Deputy Ethics Counselor. In addition, the Office of Director, the Office
                    of Research Facilities, and the Office of Research Services (both located
                    within the Office of Director) each have their own Deputy Ethics
                    Counselors as well. Hereafter we will use the term “Institute” to
                    represent all Institutes, Centers, and offices. Each Deputy Ethics
                    Counselor is responsible for the overall coordination and management of
                    that Institute’s ethics program. Deputy Ethics Counselors review NIH
                    staff financial disclosure forms and requests to engage in activities with
                    outside organizations. Some of these forms are also initially reviewed
                    by the employee’s supervisor. Deputy Ethics Counselors can approve
                    and disapprove outside activity requests based on the requests’
                    compliance with current ethics regulations and policies. Institutes may
                    also have their own Ethics Coordinators, who provide administrative
                    and program support for the Institutes’ ethics programs.

                    The HHS Office of the General Counsel (OGC) maintains an ethics
                    division at NIH. The OGC Ethics Division functions as the NIH liaison
                    to the Office of Government Ethics and provides advice on ethics issues,
                    such as conflicts of interest, financial disclosures, and ethics training
                    materials.

                    The NIH Office of Management Assessment (OMA) also has a
                    responsibility regarding the ethics program at NIH. It is responsible for
                    reviewing allegations referred to its office. OMA does not have any
                    other ethics functions.
                    Policy and Procedures for Reporting Allegations of Misconduct
                    All NIH employees, including management and supervisory personnel,
                    are responsible for reporting allegations of noncriminal misconduct to
                    the appropriate supervisor, to a higher level management official within
                    the organization, or to OMA. According to Chapter 1754 of the “NIH
                    Policy Manual,” OMA is responsible for reviewing allegations of
                    noncriminal employee misconduct and conflicts of interest.

                    All NIH employees also have the responsibility for reporting employee
                    activities that they believe are criminal. According to the “NIH Policy

 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   4
I N T R O D        U C T      I O N


                    Manual,” every employee, supervisor, and management official should
                    report any allegation of criminal offense to the Office of Inspector
                    General (OIG) for possible investigation.4 Depending on its assessment
                    of the allegation, OIG may decide to conduct an investigation or to refer
                    the allegation to OMA for administrative action.

                    NIH employees may confer with OMA at any time for advice and to
                    determine whether allegations are criminal in nature. OMA does not
                    have authority to investigate allegations involving criminal offenses by
                    NIH employees.
                    Reviews of National Institutes of Health’s Ethics Program
                    Multiple reviews conducted in recent years have highlighted the
                    weaknesses of the NIH ethics program. The Office of Government
                    Ethics has conducted five reviews since 1987. These reviews reported
                    problems with the outside activity review process. In 2004, the most
                    recent review, the Office of Government Ethics reported that “. . . NIH
                    has had a permissive culture on matters relating to outside
                    compensation for more than a decade.” It also noted that there is
                    confusion at NIH as to who is responsible for the ethics program.
                    According to the report, this results from having OGC ethics staff at
                    NIH as well as a separate NIH Ethics Office.

                    In response to conflict of interest concerns, NIH convened a Blue Ribbon
                    Panel on Conflict-of-Interest Policies in 2004. The panel concluded that
                    “the many hiring authorities used by NIH, combined with different
                    regulatory and statutory requirements regarding financial disclosure,
                    create a patchwork of policies and procedures that could easily lead to
                    misunderstandings.”5 The panel’s recommendations helped in the
                    development of revised Supplemental Standards, which were published
                    in 2005. New provisions were added specifically for NIH employees.

                    In 2005, OIG published a report entitled “Outside Activities of
                    Senior-Level NIH Employees” (OEI-01-04-00150) that assessed NIH’s
                    process for reviewing outside activity requests between 2001 and 2003.
                    The study found that limited information submitted by employees and
                    inadequacies in the review process inhibit NIH’s ability to effectively
                    review outside activity requests. OIG recommended that NIH improve


                      4 “NIH Policy Manual,” Chapter 1754, Reporting Allegations of Criminal Offenses,
                    Misuse of Grant and Contract Funds, or Improper Conduct by an NIH Employee.
                      5 “Report of the National Institutes of Health, Blue Ribbon Panel on Conflict-of-Interest
                    Policies,” June 22, 2004, p. 21.



 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   5
I N T R O D        U C T      I O N


                    the quality and extent of information collected for outside activities and
                    address the inadequacies in the review process for outside activities.
                    NIH concurred with the findings and recommendations of the report.
                    NIH noted that it had already taken many steps to address the
                    vulnerabilities identified in the report and had further initiatives
                    planned.6


                    METHODOLOGY
                    Scope
                    This study is limited to allegations provided by NIH that relate to
                    violations of conflict of interest statutes and violations of ethics
                    regulations (hereafter referred to as allegations).7 We limited our
                    review of allegations to those made during the 18-month period between
                    January 1, 2006, and June 30, 2007. To assess the handling of these
                    allegations by NIH, we focused our review on the NIH Ethics office,
                    OMA, the OGC Ethics Division at NIH, the Institutes, and Deputy
                    Ethics Counselors.
                    Data Sources and Data Collection
                    We requested all documentation pertaining to allegations. We
                    requested that the documentation include:

                    (1) Allegations received by NIH (including the Institutes, the NIH
                    Ethics Office, and OMA) and the OGC Ethics Division at NIH during
                    the 18-month period between January 1, 2006, and June 30, 2007.
                    Allegations included any evidence of noncompliance that Deputy Ethics
                    Counselors found in the course of their ethics work and that involved
                    clear, intentional, and preexisting or ongoing noncompliance.

                    (2) Any letters, e-mails, memorandums, records of phone conversations,
                    or other materials relevant to the allegations.



                       6 During its review, OIG also found that two outside activities may have violated HHS
                    supplemental regulations, which prohibit employees from providing consultative or
                    professional services for compensation to assist in the preparation of any grant application
                    intended for submission to HHS. These two cases were referred to NIH for further review.
                    NIH agreed that the cases appeared to violate HHS supplemental regulations and the
                    outside activities should not have been approved.
                      7 Conflict-of-interest statutes are established in 18 U.S.C. §§ 208 and 209. Ethics
                    regulations are established in Executive Branch Financial Disclosure, Qualified Trusts, and
                    Certificates of Divestiture; Standards of Ethical Conduct for Employees of the Executive
                    Branch; and Supplemental Standards of Ethical Conduct and Financial Disclosure
                    Requirements for Employees of HHS (5 CFR pts. 2634, 2635, 5501, and 5502).



 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   6
I N T R O D        U C T      I O N


                    We also conducted structured interviews with relevant staff in OMA,
                    the NIH Ethics Office, and the OGC Ethics Division to determine what
                    role each office plays in the handling of allegations. Our questions
                    covered topics such as roles and responsibilities in the ethics program,
                    policies and procedures for handling allegations, coordination among
                    the different offices within NIH when handling allegations, and training
                    and outreach efforts. We conducted these interviews onsite at NIH. As
                    part of our interview protocol, we collected any relevant documentation
                    or operating procedures that these officials maintained.

                    Additionally, we sent a survey to the Deputy Ethics Counselors for NIH
                    and the Institutes.8 All of the Deputy Ethics Counselors responded to
                    our survey, for a total of 31 survey responses.

                    Our questions covered topics such as each Institute’s policies and
                    procedures for how employees report allegations; the Deputy Ethics
                    Counselors’ understanding of the roles of OMA, the NIH Ethics Office,
                    and the OGC Ethics Division; the circumstances under which
                    allegations are referred to the appropriate NIH offices and the referral
                    policies and procedures; the Institute’s procedures for determining when
                    disciplinary action is necessary; and the Institute’s outreach and
                    training regarding the reporting of allegations.
                    Data Analysis
                    We used a standard protocol to extract information from the
                    documentation. From the information, we determined the number,
                    nature, and final resolutions of the allegations. Some of the
                    documentation we received involved allegations that related to multiple
                    violations and/or instances of misconduct. For these allegations, each
                    violation and/or instance of misconduct was counted separately. If the
                    same type of allegation was made against a particular employee during
                    different periods of time, the allegations were counted separately as
                    well. If duplicate documentation regarding an allegation was received
                    by more than one NIH office or Institute, the allegation was counted
                    only once.
                    From the survey data, we determined the frequency of responses to
                    closed-ended survey questions and reviewed and categorized responses
                    to open-ended survey questions.



                      8 The NIH Deputy Ethics Counselor serves as the Deputy Ethics Counselor for NIH’s
                    senior employees.



 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   7
I N T R O D        U C T      I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-07-00220    NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   8
 Δ       F I N D I N G S



The most common allegations involved National               We received documentation from
  Institutes of Health employees not completing             NIH for 565 allegations related to
          required ethics training or ethics forms          conflicts of interest and/or ethics
                                                            violations between January 1, 2006,
                       and June 30, 2007. According to the documentation, NIH determined
                       that 542 of the allegations were substantiated and 23 were
                       unsubstantiated.

                       Table 1 below shows the categories and numbers of allegations received
                       by NIH. Appendix A provides more details on the specific types and
                       numbers of allegations.

                       For the 542 substantiated allegations, the majority (296) involved
                       employees’ failure to complete required ethics training. All of these
                       allegations came from two Institutes. One Institute had 279 allegations
                       and the other Institute had 17.



                         Table 1. Number of Allegations Related to Conflicts of Interest and
                         Ethics Violations by NIH Employees Between January 1, 2006, and
                         July 30, 2007
                                                                          Number of                              Number of
                         Category of                                                                                                           Total Number of
                                                                      Unsubstantiated                          Substantiated
                         Allegations                                                                                                                Allegations
                                                                          Allegations                            Allegations
                         Failure To Complete
                         Required Ethics                                                      13                              296                              309
                         Training
                         Failure To Complete
                                                                                                 2                            194                              196
                         Required Ethics Forms
                         Violations Related to
                         Outside
                                                                                                 4                              18                             22
                         Activities/Outside
                         Entities
                         Violations Related to
                         Conflict of Interest                                                    0                              15                             15
                         Statutes
                         Other                                                                   2                              10                             12
                         Misuse of Position                                                      2                                 9                            11

                          Total                                                               23                              542                              565

                        Source: OIG analysis of NIH allegation documents.




     OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   9
   F   I N D I N G        S


                         The second most common substantiated allegation was related to
                         employees not completing required ethics forms.9 We reviewed
                         documentation for 194 of these allegations at 15 Institutes. These
                         allegations included: (1) failing to file required forms (162 allegations),
                         (2) filing required forms in an incomplete manner (26 allegations), and
                         (3) filing required forms in an untimely manner (6 allegations).

                         Of the 162 substantiated allegations related to failure to file required
                         forms, 65 percent involved financial disclosure forms (OGE-450, SF-278,
                         HHS-717-1, and/or an unspecified financial disclosure form). The
                         remaining 35 percent were related to failure to file an outside activity
                         form (HHS-520, HHS-521, and/or NIH-2657) or Section 502
                         authorization request.

                         There were 52 substantiated allegations that were not related to ethics
                         training or ethics forms. Eighteen of these allegations involved
                         violations related to outside activities or outside entities. Examples of
                         this type of allegation include employees conducting prohibited outside
                         activities or holding prohibited financial interests in outside entities.
                         Another 15 allegations were potential criminal violations of
                         conflict-of-interest statutes. Ten allegations involved other issues, such
                         as employees using Government resources for personal use. The
                         remaining nine allegations were related to employees inappropriately
                         using their official titles or inappropriately using their authority in the
                         workplace.


                                                                                                NIH provided documentation that
The majority of allegations were resolved within                                                detailed how it resolved 60 percent
  the National Institutes of Health; however, for                                               of substantiated allegations
 one-third of allegations, no final resolution was                                              (326) internally and referred
                                      documented                                                another 7 percent (39) to OIG.
                                                                                                For the remaining 33 percent of


                            9 Required forms include the HHS-520, HHS-521, NIH-2657, SF-278, OGE-450, and
                         HHS-717-1. We received one allegation related to an employee not filing a Section 502
                         authorization request. This permits an employee who knows that a particular matter
                         involving specific parties is likely to have a direct and predictable effect on the financial
                         interest of a member of the employee’s household, or who knows that a person or entity with
                         which the employee has a covered relationship is or represents a party to such matter, to
                         participate in the matter because the interest of the Government in the employee’s
                         participation outweighs the concern that a reasonable person may question the integrity of
                         the agency’s programs and operations (5 CFR § 2635.502).



       OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   10
        F   I N D I N G             S


                                  allegations (177), NIH did not provide documentation about
                                  how it resolved the allegations. Table 2 below shows how the
                                  542 substantiated allegations were handled.


Table 2. Final Resolutions of Allegations Related to Conflicts of Interest and Ethics Violations by
NIH Employees Between January 1, 2006, and July 30, 2007
                                                                                                                     Number of
                                        Number of                    Number of
                                                                                                                  Substantiated                              Number of
Category of                           Substantiated              Substantiated
                                                                                                            Allegations Without                            Substantiated
Allegations                   Allegations Resolved         Allegations Referred
                                                                                                                   Documented                                Allegations
                                            by NIH                       to OIG
                                                                                                                     Resolution
Failure To Complete
Required Ethics                                196                                           0                                       100                                  296
Training
Failure To Complete
Required Ethics                                116                                        12                                             66                               194
Forms
Violations Related to
Outside
                                                   5                                      11                                              2                                18
Activities/Outside
Entities
Violations Related to
Conflict of Interest                               1                                      14                                              0                                15
Statutes
Other                                              4                                         1                                            5                                10
Misuse of Position                                 4                                         1                                            4                                9

 Total                                         326                                        39                                         177                                  542

 Source: OIG analysis of NIH allegation documents.




                                  Sixty percent of allegations were resolved internally within the National
                                  Institutes of Health
                                  Because most of the 326 substantiated allegations that were resolved by
                                  NIH involved violations of ethics training and form requirements, NIH
                                  resolved these violations by having employees complete the required
                                  training or forms.

                                  For 195 of the 296 substantiated allegations involving ethics training,
                                  NIH provided documentation to show that the employees had
                                  eventually completed the required training. For one additional
                                  allegation, NIH provided documentation that the employee no longer
                                  worked at NIH.

                                  Of the 194 substantiated allegations concerning required ethics forms,
                                  NIH resolved 116 using a number of approaches. It resolved 101 by

            OEI-03-07-00220       NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S    11
F   I N D I N G 
S


                      having the employees submit the missing required forms and/or missing
                      information. NIH resolved another 10 ethics form allegations by:
                      suspending administrative actions (leave requests, travel requests, and
                      bonuses) for five employees until ethics forms were completed; directing
                      two employees to cease conducting the outside activities; placing a letter
                      regarding the violation in one employee’s personnel file; failing to
                      approve an employee’s late HHS-520 request; and having one employee
                      resign from his/her position at NIH.10 For five allegations related to the
                      untimely filing of paperwork, the employees were counseled as to the
                      importance of submitting paperwork on time.

                      NIH resolved 14 of the 52 substantiated allegations not related to ethics
                      training or forms. NIH resolved these 14 allegations using a number of
                      different methods. These methods included: removing an employee
                      from NIH employment, restricting an employee’s use of Government
                      property, and having an employee return travel expenses to the outside
                      entity that paid for them.
                      Seven percent of allegations involved potential criminal violations and were
                      referred to the Office of Inspector General for possible investigation
                      Because NIH does not have authority to investigate allegations
                      involving criminal offenses, it forwarded 39 potentially criminal
                      allegations to OIG for possible investigation. Fourteen of the fifteen
                      allegations related to potential criminal violations of conflict-of-interest
                      statutes were included in this group.

                      One allegation involving a potential violation of 18 U.S.C. § 208 was not
                      referred to OIG. This allegation involved an employee who was working
                      on an NIH-funded research project and whose spouse was listed as a
                      contractor on the same project. This allegation was not forwarded to
                      OIG because it was resolved internally by removing the employee from
                      the NIH research project.

                      The 39 allegations involved potential violations of conflict-of-interest
                      statutes, as well as violations of other ethics regulations. Examples of
                      the potential criminal allegations include employee(s) who:
                      • served as a director of a company that submitted an application for
                        an exclusive license to develop and commercialize a drug privately
                        while participating as an NIH employee in research and data
                        collection for the same drug,


                        10 Other allegations led to the employee’s resignation.




    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   12
 F   I N D I N G        S      



                       •	 influenced the award of a contract to a university from which the
                         employee is on a leave of absence,
                       •	 improperly acted as a consultant for pharmaceutical companies,

                       •	 used position and influence to encourage an NIH Board of Scientific
                         Directors to deny funding to an intramural research program
                         investigating a drug because of the employee’s financial ties with a
                         pharmaceutical company developing a competing drug,
                       •	 conducted prohibited outside activities, and

                       •	 accepted compensation from prohibited outside entities.

                       Thirty-three percent of allegations had no documented final resolution
                       NIH did not provide documentation showing its final resolution of
                       177 substantiated allegations. The absence of documentation does not
                       necessarily mean that the allegations were not resolved. However,
                       without complete documentation, it is impossible to determine whether
                       and how these allegations were resolved, including whether they were
                       handled appropriately and consistently.

                       We could not determine whether ethics training was completed for the
                       100 allegations related to employees not completing the required
                       training. For 66 allegations related to employees not completing
                       required ethics forms, there was no documentation to show that the
                       required forms and/or missing information were submitted. We could
                       not determine the final resolution of 11 allegations related to other
                       types of violations, such as employees inappropriately using their
                       official titles and using Government resources for personal use.



   The majority of Institutes do not have written              Twenty of thirty-one Institutes do
                                                               not have written procedures for
procedures regarding how to handle allegations
                                                               reviewing allegations regarding
       and do not handle allegations uniformly
                                                               violations of the
                       conflict-of-interest statutes and ethics regulations. Although
                       11 Institutes reported that they have written procedures, the
                       documentation we reviewed indicated that these were not
                       Institute-specific procedures that detailed a review process. Rather, the
                       Institutes were referring to more general policies or procedures
                       established by NIH, OIG, or Federal regulation.




     OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   13
F   I N D I N G 
S


                      When reviewing allegations, Institutes consult with or receive guidance from
                      different offices
                      Some Institutes reported that they do not uniformly confer with the
                      NIH Ethics Office, the OGC Ethics Division, or OMA. For example,
                      eight Institutes reported that they would contact any of the three offices
                      for guidance when reviewing allegations. Six Institutes stated that they
                      would contact either the NIH Ethics Office or the OGC Ethics Division
                      for guidance regarding how to proceed with an allegation. Another five
                      Institutes reported contacting either the NIH Ethics Office or OMA
                      when reviewing an allegation. Three Institutes reported contacting only
                      the NIH Ethics Office, and one reported contacting only OMA.
                      In contrast, some other Institutes did not cite any of the three offices
                      when describing how they review allegations. Three Institutes stated
                      that they follow NIH policies and procedures in reviewing allegations.
                      Another five Institutes reported that they review relevant documents
                      and facts, but did not specifically state that they confer with the NIH
                      Ethics Office, the OGC Ethics Division, or OMA.
                      Several Institutes refer allegations of criminal offenses directly to the Office
                      of Inspector General, but most rely on other National Institutes of Health
                      offices to make the referral
                      As stated in the “NIH Policy Manual,” Chapter 1754, “. . . every
                      employee, supervisor, and management official shall report any
                      allegations of criminal offenses to the OIG. . . .” This would include
                      violations of the financial conflict of interest statutes (18 U.S.C. §§ 208
                      and 209). We found that the majority of Institutes work with the NIH
                      Ethics Office, the OGC Ethics Division, or OMA before referring
                      criminal allegations to OIG. Seventeen Institutes forward criminal
                      allegations to the NIH Ethics Office, the OGC Ethics Division, or OMA;
                      these Institutes rely on these offices to refer the allegation to OIG if
                      they believe it is warranted. Eight Institutes reported that they refer
                      allegations of criminal offenses directly to OIG only after consultation
                      with the NIH Ethics Office, the OGC Ethics Division, or OMA.

                      Other Institutes reported that they would forward criminal allegations
                      directly to OIG. Three Institutes reported that they follow the
                      procedures outlined in the “NIH Policy Manual,” Chapter 1754, to
                      determine when and how to refer allegations to OIG. Two Institutes did
                      not specifically mention involving the NIH Ethics Office, the OGC
                      Ethics Division, or OMA in the referral process, but reported that they
                      refer allegations of criminal offenses directly to OIG. The remaining


    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   14
F    I N D I N G       S


                      Institute did not respond to our question regarding referral procedures
                      to OIG.
                      The majority of Institutes refer allegations of noncriminal offenses to the
                      Office of Management Assessment
                      According to the “NIH Policy Manual,” allegations of improper employee
                      conduct, such as violations of standards of conduct, shall be reported to
                      OMA. Eighteen of the thirty-one Institutes reported that they refer
                      allegations of noncriminal violations of the regulations directly to OMA.
                      An additional seven Institutes stated that they refer allegations
                      requiring further investigation to OMA. Three Institutes stated that
                      the nature of the allegation would determine whether they refer
                      allegations to OMA. One Institute replied that referrals would not be
                      made directly to OMA, but did not elaborate further. Two Institutes did
                      not provide a response to our question regarding referral to OMA.



        Coordination among the Ethics Office, the               From interviews with staff at
      Office of Management Assessment, and the                  the NIH Ethics Office, OMA,
                                                                and the OGC Ethics Division, it
     Office of the General Counsel Ethics Division
                                                                was clear that they understand
    occurs but is not formalized in a written policy
                                                                their own roles and
                      responsibilities with regard to handling allegations. They reported that
                      OMA is responsible for reviewing reported allegations, the OGC Ethics
                      Division provides legal advice and guidance, and the NIH Ethics Office
                      maintains the role of ethics policy expert. Because the three offices
                      have distinct roles and responsibilities, they work together as necessary
                      to handle allegations. However, this coordination is not outlined in a
                      written policy. If staff were to change, this coordination might not occur
                      because there are no policies in place to guide new staff.

                      All three offices encourage employees to report allegations. Although
                      employees can report allegations to any of the three offices, the OGC
                      Ethics Division and the NIH Ethics Office understand that OMA is
                      responsible for case development. The NIH Ethics Office reported that,
                      for tracking purposes, it forwards to OMA allegations that need further
                      investigation or need to be referred to OIG. If the NIH Ethics Office
                      needs help in determining whether an allegation is criminal, it will seek
                      assistance from the OGC Ethics Division. If an allegation is reported to
                      the OGC Ethics Division, it consults with the Designated Agency Ethics
                      Official to determine whether the allegation should be referred to OMA



    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   15
F   I N D I N G        S


                      or directly to OIG. The OGC Ethics Division reported that, as a matter
                      of courtesy, it informs OMA if an allegation is referred to OIG.

                      OMA follows a standard procedure for handling allegations as they are
                      received.11 However, these procedures do not address OMA’s
                      coordination with either the NIH Ethics Office or the OGC Ethics
                      Division. OMA reported that it seeks advice from the OGC Ethics
                      Division and the NIH Ethics Office when necessary. If OMA needs legal
                      advice regarding an allegation or clarification of whether an allegation
                      is within the purview of OIG, it contacts the OGC Ethics Division and
                      requests a written legal opinion. If OMA has a policy question
                      regarding an allegation, it consults the NIH Ethics Office.
                      Unlike OMA, the OGC Ethics Division and the NIH Ethics Office do not
                      have written policies for handling allegations. They also do not have
                      any written procedures outlining coordination among the three offices.
                      The NIH Ethics Office is currently developing a policy to help employees
                      determine where allegations should be reported and to provide some
                      general guidance for managers and employees.




                        11 OMA is currently in the process of revising its internal manual, which outlines the
                      case review policies and procedures.



    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   16
F   I N D I N G        S
Δ       R E C O M M E N D A T I O N S




                      NIH employees have a responsibility to avoid the appearance of
                      impropriety, which can undermine public confidence in the scientific
                      integrity of NIH’s research program. Consequently, NIH has a
                      responsibility to ensure that its employees abide by Federal statutes
                      and regulations regarding ethics and conflicts of interest. Violations of
                      these statutes and regulations could jeopardize the scientific integrity of
                      NIH’s research programs.
                      Because NIH is organized as various components, including Institutes,
                      NIH’s ethics program is composed of various offices that work to handle
                      allegations of conflict of interest and ethics violations. To maintain
                      consistency in how allegations are handled at NIH, we recommend that
                      NIH:

                      Develop a Formal, Written Policy Outlining How Allegations of
                      Conflicts of Interest and Ethics Violations Are to be Handled Among
                      the Institutes’ Ethics Offices, the National Institutes of Health Ethics
                      Office, the Office of the General Counsel Ethics Division, and the
                      Office of Management Assessment

                      This policy should outline:

                      • when managers and Deputy Ethics Counselors should report
                        allegations and to which office they should report them;

                      • which office should handle questions regarding allegations; as part
                        of this clarification, NIH may want to designate a single,
                        centralized office for allegation intake;

                      • how the Deputy Ethics Counselors, NIH Ethics Office, the OGC
                        Ethics Division, and OMA coordinate and share information
                        regarding an allegation;

                      • how much factfinding/case development should be conducted by
                        each office regarding an allegation; and

                      • the definitions of criminal and noncriminal allegations.

                      Ensure That Documentation Detailing How Allegations Are Ultimately
                      Resolved Is Maintained

                      Because we found no documented resolutions for one-third of
                      substantiated allegations, we believe that NIH should require all of its


    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   17
R   E C O         M M E N D A T                     I O N                S

                     offices to maintain complete documentation regarding how they resolve
                     allegations about ethics and conflicts of interest.


                     AGENCY COMMENTS
                     NIH concurred with our recommendations, stating that as of
                     August 15, 2008, the recommendations were implemented as a new
                     chapter in the “NIH Policy Manual.” This new chapter is entitled
                     “Managing Employee Non-Compliance with Government Ethics
                     Requirements.” However, NIH noted that our finding related to
                     employees not completing required ethics forms was misleading because
                     it did not provide as context the number of employees required to take
                     the training. NIH stated that its policy requires all employees to
                     complete ethics training. In contrast, Federal regulation requires only
                     those who file public and confidential financial disclosure forms to
                     complete annual ethics training. Therefore, NIH reported that ethics
                     training noncompliance would be less than 2 percent of the total
                     population of approximately 18,000 NIH employees required to take the
                     training. The official draft report shared with NIH did note in the
                     background, as does this final report, that NIH’s ethics program
                     encompasses approximately 18,000 employees.

                     The full text of NIH’s comments is presented in Appendix B.




OEI-03-07-00220      NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   18
Δ      A P P E N D I X                             A

Types and Number of Allegations Related to Conflicts of Interest and Ethics Violations Between
January 1, 2006, and June 30, 2007

                                                                                                 Number of                    Number of
                                                                                                                                                                  Total Number of
   Category of Allegations            Specific Type of Allegation                               Substantiated               Unsubstantiated
                                                                                                                                                                    Allegations
                                                                                                 Allegations                  Allegations

Failure To Complete Required
                                    NA                                                                     296                         1
                                                                                                                                       
3                              3
                                                                                                                                                                       
 09

Ethics Training (Total = 309)
                                     Failure To File the OGE-450 
                                         62                           
0                              62          


                                     Failure To File the HHS-520 
                                         45                           
1                              4
                                                                                                                                                                        
6          


                                     Failure To File the HHS-717-1                                         38                           
1                              3
                                                                                                                                                                        
9          


                    Failure To
                                    Failure To File the HHS-521 
                                          10                           
0                              10

                    File 

                    Paperwork 

                                    Failure To File the SF-278 
                                            4                           
0                              4

                    (Total = 164) 

                                     Failure To File an Unspecified 

                                     Financial Disclosure Form                                              1                           
0                              1

Failure To

                                     Failure To File a Section 502 

Complete                                                    1                                               1                           
0                              1

                                     Authorization Request
Required
Ethics Forms                         Failure To File the NIH-2657 
                                         1                           
0                              1           

(Total = 196) 

                                     Filing an Incomplete
                                     HHS-717-1 
                                                           21                           
0                              21


                    Filing 

                                     Filing an Incomplete HHS-520 
                                         2                           
0                              2

                    Incomplete 

                    Paperwork 

                                     Filing an Incomplete SF-278
                                           2                           
0                              2

                    (Total = 26)
                                     Filing an Incomplete NIH-2657 
                                        1                           
0                              1           


                    Untimely

                    Filing of 

                                     Untimely Filing of the HHS-520 
                                       6                           
0                              6

                    Paperwork 

                    (Total = 6) 

                                    Conducting a Prohibited 

                                    Outside Activity                                                        5                           
3                              8
                                                                                                                                                                        


                                    Financial Interest in Outside
                                    Entity Influencing Professional                                         3                           
0                              3           

                                    Decisions 

                                    Holding Prohibited Financial
                                    Interests in Outside Entities                                           3                           
0                              3

                                    Inappropriately Accepting
                                    Reimbursement of Travel                                                 3                           
0                              3

Violations Related to Outside       Expenses From Outside Entity
Activities/Outside Entities         Accepting Prohibited
(Total = 22 )                       Compensation From Outside                                               1                           
1                              2
                                                                                                                                                                        
           

                                    Entities 

                                    Comingling Outside Activities
                                    With Official Duties                                                    1                           
0                              1

                                    Conducting an Outside Activity
                                    as an Official Duty Without                                             1                           
0                              1           

                                    Approval
                                    Asking Outside Entity To
                                    Donate Honoraria to Private                                             1                           
0                              1           

                                    Foundation 


  OEI-03-07-00220         NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S        19 

A    P   P E N D           I X         ~        A            





                                                                                                     Number of                        Number of
                                                                                                                                                                     Total Number of
                                                                                                    Substantiated                   Unsubstantiated
                                                                                                                                                                       Allegations
                                                                                                     Allegations                      Allegations
      Category of Allegations              Specific Type of Allegation

                                           Violation of 18 U.S.C. § 208                                       13                               0                             13
 Violations Related to Conflict
 of Interest Statutes (Total = 15)         Violation of 18 U.S.C. § 209                                        1                               0                             1

                                           Violation of 18 U.S.C. § 205
                                                                                      2
                                                                                                               1                               0                             1

                                           Using Government
                                           Resources for Personal Use                                          6                               0                             6
                                           Misuse of Federal Funds by
                                           Not Complying With                                                  0                               1                             1
                                           Government Travel Rules
                                           Supervisory Failure
                                           Regarding Ethics Duties                                             1                               0                             1

 Other (Total = 12)                        Overuse of Vendor                                                   1                               0                             1

                                           Improper Purchase of
                                           Government Equipment                                                1                               0                             1

                                           Violation of Employment Law                                         1                               0                             1

                                           NIH Staff Denying Funding to
                                           Outside Entity                                                      0                               1                             1

                                           Inappropriate Use of Official
                                           Title                                                               7                               2                             9
 Misuse of Position (Total = 11)
                                           Inappropriate Use of Authority                                      2                               0                             2

    Total                                                                                                     542                            23                           565

Source: Office of Inspector General analysis of National Institutes of Health allegations documents.
1
  This permits an employee who knows that a particular matter involving specific parties is likely to have a direct and predictable effect
on the financial interest of a member of the employee’s household, or who knows that a person or entity with which the employee has a
covered relationship is or represents a party to such matter, to participate in the matter because the interest of the Government in the
employee's participation outweighs the concern that a reasonable person may question the integrity of the agency’s programs and
operations (5 CFR § 2635.502).
2
  18 U.S.C. § 205 prohibits employees from representing the interests of an outside entity before a Government agency.




    OEI-03-07-00220          NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S      20
Δ      A P P E N D I X ~ B


     Agency Comments




OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   21
A   P   P E N D       I X      ~        B




    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   22
A   P   P E N D       I X      ~        B




    OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   23
A P P E N D        I X
Δ    A C K N O W L E D G M E N T S

                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector
                   General.

                   Tanaz Dutia served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Philadelphia
                   regional office who contributed to the report include Diane Epstein and
                   Maria Johnson; central office staff who contributed include Ayana
                   Everett and Rita Wurm.




 OEI-03-07-00220   NIH’S HANDLING   OF   A L L E G AT I O N S C O N C E R N I N G C O N F L I C T   OF   INTEREST   AND   E T H I C S V I O L AT I O N S   24
